No. 20-5098

IN TH E

S U P R E ME C O U R T o f t h e U N I T E D S T AT E S
_______________
MIKH AIL S. TSUKERMAN,
P etition er ,
v.
WE STE RN COMMUNITY UNIT SCH OOL
DISTRICT NO. 12,
Respon d en t.
_______________
C E R T I F I C AT E O F S E R VI C E
P u r su a n t t o Su p. Ct . R. 29 a n d pu r su a n t t o Or der List : 589 U.S. da t ed Apr il
15, 2020 r ela t ing t o CoVid-19, t h e u n der sign ed cou n sel for Respon den t s
cer t ifies t h a t on t h is 14 th da y of Au gu st , 2020, h e ca u sed t h e a bove-st a t ed
Br ief in Opposit ion t o be e-filed wit h t h e Cler k of t h e Su pr em e Cou r t a n d t h a t
on e pa per copy wa s for wa r ded t o t h e Cler k a s well a s ser vin g a copy on P r oSe P et it ion er a t h is a ddr ess a s pr ovided by t h e plea din gs h er ein bot h via
em a il a n d r egu la r m a il via t h e U.S. P ost a l Ser vice in Belleville, Illin ois wit h
post a ge pr epa id, t o wit :
P r o-Se P et it ion er :
Mikh a il S. Tsu ker m a n
5 Delcr est Cou r t , Apt . 104
St . Lou is, MO 63124
t su ker m a n @sbcgloba l.n et
E xecu t ed on Au gu st 14, 2020
s/Th om a s J . H u n t er
TH OMAS J . H UNTE R
Su pr em e Cou r t Ba r N o. 287698
Becker , H oer n er & Ysu r sa , P .C.
5111 West Ma in St r eet
Belleville, IL 62226
(618) 235-0020
t jh @bh yla w.com
Cou n sel for Respon d en t

